July 2, 2010

TOM A. SAMRA
VICE PRESIDENT, FACILITIES

SUBJECT: Audit Report – Facility Energy: Metering Technologies
        (Report Number DA-AR-10-006)

This report presents the results of our self-initiated audit of the U.S. Postal Service’s
application of time-of-use (TOU) metering technologies (Project Number 09YG046DA000).
Our objective was to determine whether Postal Service processing and distribution centers
(P&DCs) are using TOU metering technologies to manage energy costs. This audit
addresses the financial risk for electricity costs. See Appendix A for additional information
about this audit.

The fiscal year (FY) 2009 annual electricity cost for the Postal Service was $520.4 million.
Energy management uses TOU meters to separate electricity consumption based on peak
and off-peak periods. By shifting the use of electricity to off-peak periods, the Postal
Service can take advantage of lower tariffs or rates offered by utility companies during
those periods. In the Postal Service, large numbers of mail sortation machines are active
during evening and nighttime hours, therefore deploying TOU meters would be a cost-
effective way for the Postal Service to save on energy costs at its processing plants.

Opportunities Exist for P&DCs to Expand Use of TOU Metering Technologies

The Postal Service is effectively using TOU metering technologies to conserve electricity
at its P&DCs. Only three out of 144 P&DCs (or 2 percent) do not have but are eligible for
TOU metering. Managers monitoring electricity costs indicated these facilities either were
not aware of TOU benefits or were not required to install TOU meters. The remaining
facilities already have or are ineligible for TOU metering. A facility may be eligible for TOU
metering when:

         The utility company offers TOU rates.
         TOU rates will not result in a higher cost.
         Accounts meet utility consumption requirements for TOU rates.
         TOU utilization avoids penalties for non-compliance.

Although the current Postal Service energy policy1 does not require P&DCs to install TOU
metering, an objective of the U.S. Postal Service National Energy Management Strategy2
is to implement all available and proven technologies to improve energy performance at

1
    Handbook AS-558, Facility Energy Management Guide, September 1998.
2
    Dated November 2008.
Facility Energy: Metering Technologies                                       DA-AR-10-006



facilities without adversely affecting missions or operations. One of the strategies cited is
to use less electricity during peak hours. The U.S. Department of Energy’s Guidance for
Electric Metering in Federal Buildings also recommends TOU metering as a method to
save facilities energy costs.

Had the Postal Service installed TOU metering at the three P&DCs identified in Chart 1,
the savings would have been $210,522 for FY 2009. In addition, the Postal Service could
save at least $1,691,740 over the next 10 years by installing TOU meters at these plants.
See Appendix B for summary monetary impacts and assumptions used.

         Chart 1: Postal Service Facilities with Opportunities for TOU Metering


                                           FY 2009
                                        Unrecoverable      10-Year Funds
                               P&DC      Questioned         Put to Better
                     Area     Facility      Costs                Use
                   Southeast Nashville       $100,822             $810,200
                   Eastern   Louisville        75,064              603,207
                   Eastern   Lexington         34,636              278,333
                               Total         $210,522          $1,691,740

We recommend the vice president, Facilities, instruct affected Area Facility Service Office
managers to:

1. Install time-of-use metering at eligible processing and distribution centers by
   December 31, 2010.

2. Update policy to require installation of time-of-use metering at all eligible processing
   and distribution centers.

Management’s Comments

Management generally agreed with recommendation 1 that installing TOU metering at
eligible facilities would result in monetary savings to the Postal Service. Management
agreed to implement TOU rates at the Nashville, Louisville and Lexington P&DCs, but
disagreed with the estimated FY2009 Unrecoverable Questioned Costs for these facilities.
Management disagreed that implementation of TOU rates was possible at the Honolulu,
Jackson, and South Bend P&DCs. Installing TOU at the Honolulu P&DC would result in an
estimated $100,000 increase in utility charges per year based on the extended peak hour
period required under this rate and the higher kilowatt hour rate applied during this period.
In addition, the Jackson and South Bend P&DCs are not currently eligible for TOU
metering.

Management disagreed with recommendation 2. They stated that TOU metering could be
superseded in the future and that they have already evaluated all medium and large
facilities for TOU metering. They also stated that they evaluate non-TOU facilities annually

                                               2
Facility Energy: Metering Technologies                                    DA-AR-10-006



for TOU metering opportunities. Hence a policy change requiring the installation of TOU
metering at eligible P&DCs was not necessary. See Appendix C for management’s
comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General considers management’s comments
responsive to the recommendations and management’s corrective actions should resolve
the issues identified in the report. We determined the three facilities management reviewed
(the Honolulu, South Bend, and Jackson P&DCs) were eligible for TOU based on our
interviews with customer service representatives at the utility companies. We recognize
that the Postal Service may have conducted a more in-depth review of potential TOU
metering opportunities, which could have resulted in a different conclusion. Therefore we
will eliminate the three facilities in question from the monetary impact calculation. We do
believe, however, that our calculation of the annual savings for the Nashville, Louisville,
and Lexington P&DC’s is reasonable per the Department of Energy study disclosed in the
Appendix B assumptions.

Regarding recommendation 2, while management disagreed with our recommendation,
the actions they are planning – to annually look for rate optimization opportunities meets
the intent of our recommendation.

 The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action(s) are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation that
the recommendation(s) can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, director,
Engineering and Facilities, or me at 703-248-2100.

      E-Signed by Mark Duda
 VERIFY authenticity with ApproveIt




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Steven J. Forte
    Robert McNiece
    Sally K. Haring



                                             3
Facility Energy: Metering Technologies                                       DA-AR-10-006



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Standard electricity meters measure the total amount of electricity consumed at a facility,
regardless of the time of day electricity is used. TOU metering for electricity involves using
meters that separate electricity consumption based on peak and off-peak periods. Peak
periods are typically daytime hours when large numbers of consumers are using electricity.
Off-peak periods are typically evening and nighttime hours. By shifting the use of electricity
to off-peak periods, utility companies can prevent the construction of additional generating
plants that would be necessary to meet consumers’ needs during peak periods. As an
incentive to have consumers shift consumption to off-peak periods, many utility companies
offer a lower cost rate for electricity consumed in that timeframe.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether Postal Service P&DCs are using TOU metering
technologies to manage energy costs. To achieve our objective, we obtained the 2009
annual electricity costs for the Postal Service’s P&DCs by downloading data from the
Enterprise Data Warehouse (EDW). To determine whether a facility used TOU metering,
we reviewed data from the Utilities Management System. We calculated potential savings
by multiplying FY 2009 electricity costs for non-TOU facilities by the Department of
Energy’s average savings for converting to TOU.

We conducted this performance audit from September 2009 through July 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We also discussed our observations
and conclusions with management officials on March 24, 2010, and included their
comments where appropriate.

We used data from the EDW and data from the Utilities Management System. We
assessed the reliability of data by:

       Comparing annual energy costs recorded in the systems to source documents.
       Confirming data with knowledgeable Postal Service officials.

We determined that the data were sufficiently reliable for the purposes of this report.

PRIOR AUDIT COVERAGE

We did not identify any prior audits or reviews related to the objective of this audit.




                                               4
Facility Energy: Metering Technologies                                                             DA-AR-10-006



                                      APPENDIX B: MONETARY IMPACT

                    Finding               Impact Category                                 Amount
                       1           Funds Put to Better Use3                               $1,691,740
                       1           Unrecoverable Questioned Costs4                           210,522
                                   Total                                                  $1,902,262


       Assumptions:

          In calculating the 10-year funds put to better use, we discounted the yearly savings
           at 7 percent.

          Per the Department of Energy, deploying TOU metering would reduce electricity
           costs by an average of 10 percent per year.

          We used FY 2009 costs as a baseline for future year savings.




3
    Funds that could be used more efficiently by implementing recommended actions.
4
    Unrecoverable costs that are unnecessary, unreasonable or an alleged violation of law or regulation.

                                                              5
Facility Energy: Metering Technologies                        DA-AR-10-006



                          APPENDIX C: MANAGEMENT’S COMMENTS




                                          6
Facility Energy: Metering Technologies       DA-AR-10-006




                                         7
Facility Energy: Metering Technologies       DA-AR-10-006




                                         8
